U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



        Farm Service Agency
   1998 Loan Deficiency Payments
    in Cass County, North Dakota




                Report No.
                03099-40-KC
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL
                                       Great Plains Region
                                          P.O. Box 293
                                   Kansas City, Missouri 64141




DATE:               September 25, 2000

REPLY TO
ATTN OF:         03099-40-KC

SUBJECT:         1998 Loan Deficiency Payments in Cass County, North Dakota

TO:              Scott B. Stofferahn
                 State Executive Director
                 Farm Service Agency


This report presents the results of our review of 1998 loan deficiency payments (LDP) in
Cass County, North Dakota. The review was initiated in response to a request. We
determined whether producers entered into delayed pricing contracts prior to making the
LDP requests but did not disclose this information to county office (CO) personnel. Farm
Service Agency (FSA) personnel did not become aware of the contracts until LDP spot-
checks disclosed that the farm-stored commodities had been delivered to warehouses
prior to the LDP requests. We found that 4 of 15 producers did not meet the beneficial
interest requirements at the time of their LDP requests. FSA procedures did not
specifically require producers to disclose that such contracts existed, but did rely on
producer certifications that beneficial interest had been retained. One warehouse also
provided producers with data that was somewhat misleading (i.e., delivered grain shown
as being in open storage even though it had been applied to existing sales contracts). As
a result, the producers received LDP benefits of about $21,670 to which they were not
entitled. In addition, the producers could be subject to the repayment of liquidated
damages totaling about $5,420.

BACKGROUND

Sections 131 through 136 of the Federal Agriculture Improvement and Reform Act of 1996
required implementation of a nonrecourse marketing loan assistance and LDP program on
16 commodities for the 1996 through 2002 crop years. The FSA was responsible for
program administration.

The Act provided that eligible producers could request price support loan or LDP benefits
on eligible commodities from the date of harvest through the final loan availability date.
However, producer eligibility was dependent on meeting the beneficial interest
requirements at the time of request.
FSA Handbook 6-LP, paragraph 17, contains the definitions applicable to beneficial
interest. These definitions generally provide that a producer must have (1) control of the
Scott B. Stofferahn                                                                           2

commodity, (2) risk of loss, and (3) title to the commodity at the time LDP benefits are
requested. To have control of a commodity, the producer must retain the ability to make all
decisions regarding the commodity including moving or selling the commodity. The
producer must also be responsible for any damage to the commodity and be eligible for
any indemnity to be paid on such commodity. Also, to retain title, the producer must not
have sold the commodity.

Paragraph 17 also provides, in part, that a sales contract, including advance sales
contracts, contracts to sell, price later contracts and contracts for future delivery, gives the
buyer an interest in the commodity at a time specified in the contract or at a time implied by
law. Also, once beneficial interest in a commodity is lost, the commodity remains ineligible
for a loan or LDP even if a producer regains control, risk of loss, and title. Producers in
Cass County, North Dakota, were generally signing three different types of pricing
contracts including delayed pricing, future delivery, or installment sales.

FSA Handbook 7-LP, paragraph 500, also provides, in part, that farm-stored loans and
LDP’s are subject to spot-check during and after the loan availability period. The purpose
of the spot-checks is to provide CO’s with reasonable assurance that the quantities
certified for program benefits are, in fact, stored on the farm.

OBJECTIVES

The primary objective of this review was to determine whether selected producers in Cass
County, North Dakota, met the beneficial interest requirements at the time of their requests
for 1998 crop LDP benefits.

AUDIT SCOPE AND METHODOLOGY

The audit, which was conducted in January and February 2000, included interviews with
agency and warehouse officials and a review of supporting program records. At the outset
of the review, CO personnel advised us that the beneficial interest problems generally
involved the production delivered to three warehouses located in Minnesota and North
Dakota. Program records showed that a total of 652 Cass County producers received
1998 crop LDP benefits on production that was delivered to those warehouses. We
judgmentally selected 15 producers for review. This included five producers at each of the
three identified warehouses based on factors such as timing of the LDP requests, crop(s)
involved, and quantities delivered.

We also examined the production evidence furnished by three other judgmentally selected
producers in Clay County, Minnesota, who delivered grain to one of the three warehouses.


For each sample producer, we compared the production evidence furnished to the Cass
and Clay CO’s with that maintained at the warehouse. This included copies of the
supporting assembly sheets, scale tickets, settlement sheets, sales contracts, and Forms
CCC-666 LDP, Loan Deficiency Payment Application and Certification.
Scott B. Stofferahn                                                                          3


The audit was conducted in accordance with Government Auditing Standards.
Accordingly, the audit included tests of program and accounting records as deemed
necessary to meet the audit objectives.

DETAILS

The audit disclosed that 4 of the 15 sample producers did not meet the beneficial interest
requirements at the time of their requests for LDP benefits. In each case, the quantities
claimed for LDP benefits were covered by delayed pricing contracts issued by two
warehouses. Three producers had delivered their commodities to Warehouse 1 and one
producer delivered the crop to Warehouse 2. The CO records showed that each of the
producers certified that they retained beneficial interest when, in fact, they had entered into
various types of sales contracts prior to the time of the LDP requests. One of the sample
producers could not remember the circumstances surrounding the 1998 grain deliveries.
Another producer did not believe that beneficial interest was lost until the warehouse paid
for the grain. Due to the loss of beneficial interest, we concluded that the producers
received LDP benefits of about $21,670 to which they were not entitled. Also, the
producers are subject to the repayment of liquidated damages totaling about $5,420.

FSA Handbook 6-LP, paragraph 17, provides, in part, that producer eligibility for program
benefits is dependent on having a beneficial interest in the commodity and being in
compliance with the highly erodible land and wetland conservation provisions at the time of
the LDP request. Beneficial interest consists of retaining title to the commodity, control of
the commodity, and risk of loss. Also, FSA Handbook 7-LP, paragraph 521A, provides, in
part, that producers acknowledge the terms and conditions shown on forms CCC-666 LDP
or CCC-709 at the time signing. This includes not making any misrepresentations as to
the eligibility of a commodity for LDP benefits. Paragraph 521B, further provides, in part,
any producer determined to have violated the terms and conditions of the applicable forms
shall be subject to liquidated damages.
Scott B. Stofferahn                                                                         4




The following table contains summary information on the four cited producers:

                                                           Liquidated Damages
              LDP Quantity              Ineligible LDP      (Ineligible Quantity
             Under Delayed              Benefit Amount    times LDP Rate times       Total
             Pricing or Price   LDP       (Contract       25 Percent Liquidated     Recovery
 Producer    Later Contract     Rate    Quantity times         Damage Rate)         Amount
                (Bushels)                 LDP Rate)                                    *
    A              43,225.22    $0.17         $7,348.29               $1,837.07     $9,185.36
    B                  374.18   $0.31           $116.00                  $29.00       $145.00
    C                  744.47   $0.62           $461.57                 $115.39       $576.96
                   12,906.33    $0.62         $8,001.92               $2,000.48    $10,002.40
                       349.20   $0.37           $129.20                  $32.30       $161.50
                     1,782.10   $0.25           $445.53                 $111.38       $556.91
                     1,046.34   $0.25           $261.59                  $65.40       $326.99
                     6,945.01   $0.41         $2,847.45                 $711.86     $3,559.31
    D                6,141.09   $0.22         $1,351.04                 $337.76     $1,688.80
   Total                                     $20,962.59               $5,240.64    $26,203.23

* The amounts shown do not reflect impact of any share differences described below.

Producer A

On October 8, 1998, CO personnel disbursed LDP benefits of $7,348.29 (LDP No. 1256)
to Producer A based on a reported 100 percent interest in 43,225.22 bushels of 1998 crop
wheat delivered to Warehouse 1 from August 7 through August 13, 1998. The supporting
form CCC-666 LDP showed a request and approval date of August 24, 1998. However,
warehouse records showed that the entire quantity claimed for LDP benefits was covered
by two price later contracts (Nos. 21516 and 21517). The contracts were dated August 8
(5,408.66 bushels) and August 13, 1998, (37,816.56 bushels), respectively and showed
that title passed to the buyer at the time of delivery to the warehouse. However, the
producer certified that he retained beneficial interest in the commodity even though such
interest was lost upon delivery of the crop to the warehouse. Therefore, the producer was
not entitled to the LDP benefits of $7,348,29 because the beneficial interest requirements
were not met at the time of the LDP request on August 24, 1998. The producer could also
be subject to the repayment of liquidated damages totaling $1,837.07 (43,225.22 ineligible
bushels times $0.17 LDP rate times 25 percent liquidated damage rate).
Scott B. Stofferahn                                                                     5




Producer B

On October 2, 1998, CO personnel disbursed LDP benefits of $3,336.00 (LDP No. 1134)
to the producer based on a reported two-thirds interest in 16,141,98 bushels of 1998 crop
wheat that were delivered to Warehouse 1 from August 7 through August 12, 1998. The
supporting form CCC-666 LDP showed a request and approval date of September 4,
1998. However, warehouse records showed that the producer’s share included at least
374.18 bushels that were covered by a price later contract (No. 21611). That contract
showed, in part, that title passed to the buyer on the date of delivery (August 12, 1998).
Based on other production evidence obtained from the warehouse, we concluded that the
producer might have had other price later contracts covering 1998 crop wheat production.
However, the warehouse did not timely provide us with data on any other associated sales
contracts during the audit. Therefore, we concluded that the producer was not eligible for
LDP benefits of at least $116 (374.18 ineligible bushels times $0.31 LDP rate) and
question the remaining amount. Also, the producer could be subject to the repayment of
liquidated damages totaling at least $29 (374.18 ineligible bushels times $0.31 LDP rate
times 25 percent liquidated damage rate).

Producer C

On October 23, 1998, CO personnel disbursed LDP benefits of $2,125.40 (LDP No. 1912)
to the producer based on 100 percent interest in 3,428.07 bushels of 1998 crop soybeans
that were delivered to Warehouse 1 from September 25 through October 4, 1998. The
supporting form CCC-666 LDP showed a request and approval date of October 5, 1998.
However, the form also showed that the producer only had a two-thirds interest in
the quantity claimed for program benefits. This was confirmed through a review of the
supporting warehouse records. Our analysis of the warehouse records also disclosed that
the quantity claimed for program benefits included a portion (744.47 bushels) of 2,000
bushels that were delivered in conjunction with a price later contract (No. 3704), dated
October 13, 1997. (Note: The 2,000 bushels under the subject price later contract included
906.33 bushels delivered in conjunction with LDP No. 1913 and 1,093.67 bushels
delivered in conjunction with the subject LDP and LDP No. 2846. The 1,093.67-bushel
figure represented the producer’s share (1,165.41 bushels) of two loads (1,224.31
bushels) claimed for program benefits under the subject LDP and one load (523.77
bushels) claimed for benefits under LDP No. 2846 less 71.74 bushels that remained in
open storage. As a result, we determined that the producer’s LDP benefits should have
been limited to $955.43 [1,541.02 eligible bushels (3,428.07 bushels claimed times
0.6667 producer’s share) – 744.47 bushels applied to price later contract times $0.62
LDP rate]. Therefore, the producer’s LDP benefits were overstated by $1,169.97
($2,125.40 amount paid - $955.43 amount due). The producer could also be subject to the
repayment of liquidated damages totaling $292.49 [1,887.05 ineligible bushels (3,428.07
bushels claimed – 1,541.02 eligible bushels) times $0.62 LDP rate times 25 percent
 liquidated damage rate] for this LDP.
Scott B. Stofferahn                                                                     6

On October 24, 1998, CO personnel disbursed LDP benefits of $8,335.78 (LDP No. 1913)
to the producer based on a reported 100 percent interest in 13,444.82 bushels of 1998
crop soybeans that were delivered to Warehouse 1 from September 23 through October 5,
1998. The supporting form CCC-666 LDP showed a request and approval date of
October 5, 1998. However, our analysis of the associated warehouse records disclosed
that the quantity claimed for LDP benefits included 12,906.33 bushels that were applied to
seven future delivery contracts (Nos. 3704, 4680, 5034, 5035, 5091, 5096, and 5107).
The contracts showed dates that ranged from October 13, 1997, to June 23, 1998.
Therefore, the producer did not meet the beneficial interest requirements on 12,906.33
bushels at the time of the LDP request. As a result, we determined that the producer
received excess LDP benefits of $8,001.92 (12,906.33 bushels applied to price later
contract times $0.62 LDP rate). The producer could also be subject to the repayment of
liquidated damages totaling $2,000.48 (12,906.33 ineligible bushels times $0.62 LDP rate
times 25 percent liquidated damage rate).

On November 11, 1998, CO personnel disbursed LDP benefits of $296.80 (LDP No.
2846) to the producer based on a reported two-thirds interest in 1,203.19 bushels of 1998
crop soybeans that were delivered to Warehouse 1 from October 5 through October 10,
1998. The supporting form CCC-666 LDP showed a request and approval date of
October 12, 1998. However, our analysis of the associated warehouse records disclosed
the quantity claimed for LDP benefits included 349.20 bushels (producer’s two-thirds
interest in 523.77 bushels) that were applied to a price later contract (No. 3704), dated
October 13, 1997. Therefore, the producer’s LDP benefits were overstated by $129.20
[349.20 ineligible bushels times $0.37 LDP rate]. The producer could also be subject to
the repayment of liquidated damages totaling $32.30 (349.20 ineligible bushels times
$0.37 LDP rate times 25 percent liquidated damage rate) for this LDP.

On January 7, 1999, CO personnel disbursed LDP benefits of $445.53 (LDP No. 3845) to
the producer based on a reported 100 percent interest in 1,782.10 bushels of 1998 crop
soybeans that were delivered to Warehouse 1 from October 23 through October 25,
1998. The supporting form CCC-666 LDP showed a request and approval date of
October 30, 1998. However, our analysis of the associated warehouse records disclosed
that the quantity claimed for LDP benefits represented the producer’s 50 percent
interest in 3,564.21 bushels covered by a price later contract (No. 5261), dated October
25, 1998. Therefore, the producer did not meet the beneficial interest requirements at the
time of the LDP request and was not eligible for the associated program benefits
($445.53). The producer could also be subject to the repayment of liquidated damages
totaling $111.38 (1,782.10 ineligible bushels times $0.25 LDP rate times 25 percent
liquidated damage rate) for this LDP.

On January 7, 1999, CO personnel disbursed LDP benefits of $1,170.41 (LDP No. 3846)
to the producer based on a reported 100 percent interest in 4,681.64 bushels of 1998 crop
soybeans that were delivered to Warehouse 1 from October 13 through October 30, 1998.
 The supporting form CCC-666 LDP showed a request and approval date of October 30,
1998. However, our analysis of the associated warehouse records disclosed that the
quantity claimed for program benefits included 523.87 bushels that were applied to a price
Scott B. Stofferahn                                                                          7

later contract (No. 5219), dated October 12, 1998, and 522.47 bushels applied to another
price later contract (No. 5286), dated October 28, 1998. As a result, the producer did not
meet the beneficial interest requirements in a total of 1,046.34 bushels at the time of the
subject LDP request. Therefore, the associated LDP benefits were overstated by $261.59
(1,046.34 ineligible bushels times $0.25 LDP rate). The producer could also be subject to
the repayment of liquidated damages totaling $65.40 (1,046.34 ineligible bushels times
$0.25 LDP rate times 25 percent liquidated damage rate) for this LDP.

On February 2, 1999, CO personnel disbursed LDP benefits of $2,847.45 (LDP No. 4802)
to the producer based on a reported 100 percent interest in 6,945.01 bushels of 1998 crop
soybeans that were delivered to Warehouse 1 on January 21 and 22, 1999. The
supporting form CCC-666 LDP showed a request and approval date of February 2, 1999.
However, the associated warehouse records showed that the 6,945.01 bushels claimed for
program benefits were applied to a price later contract (No. 5614) dated December 1,
1998. Therefore, the producer did not meet the beneficial interest requirements at the time
of the LDP request and was not eligible for the associated program benefits ($2,847.45).
The producer could also be subject to the repayment of liquidated damages totaling
$711.86 (6,945.01 ineligible bushels times $0.41 LDP rate times 25 percent liquidated
damage rate) for this LDP.

Producer D

On September 28, 1998, CO personnel disbursed LDP benefits of $1,351.04 (LDP No.
929) to the producer based on a reported 50 percent interest in 12,282.17 bushels of 1998
crop wheat delivered to Warehouse 2 from August 1 through August 7, 1998. The
supporting form CCC-666 LDP showed a request and approval date of September 1,
1998. However, the associated warehouse records showed that the producer’s share
(6,141.09 bushels) was covered by two installment sale contracts (Nos. 72105 and 72106).
 The contracts were dated August 20 and August 24, 1998. Each contract showed, in part,
that the seller could not pledge the commodity for a loan. For that reason, we concluded
that the producer lost beneficial interest at the time of contract signing and was not eligible
for the associated LDP benefits. Also, the producer could be subject to the repayment of
liquidated damages totaling $337.76 (6,141.09 ineligible bushels times $0.22 LDP rate
times 25% liquidated damage rate).

Beneficial interest requirements remain today but allow each producer to go back to the
last day when beneficial interest was maintained when claiming loan deficiency payments.




Recommendation No. 1

Notify all producers of the need to request LDP benefits prior to delivery in cases where the
commodity is covered by sales or delayed pricing contracts that specify the loss of
beneficial interest at the time of delivery.
Scott B. Stofferahn                                                                       8


FSA Response

The agency’s August 22, 2000, response to the draft report (see exhibit B) showed that the
CO would publicize the beneficial interest requirements, including the impact of sales
contracts on beneficial interest. The response also contained copies of prior State office
news releases pertaining to the beneficial interest requirements.

OIG Position

We agree with your management decision for Recommendation No. 1.

Recommendation No. 2

Collect the LDP and liquidated damages due from the cited producers. Also, identify any
other producers who claimed 1998 crop LDP benefits on commodities that were delivered
to Warehouse 1. Require those producers to provide copies of any associated price later
contracts, assembly sheets showing settlement data or evidence that any applicable
storage charges were paid. Also, notify the producers that applicable LDP benefits,
including any liquidated damages, will be subject to recovery if the needed information is
not provided within a reasonable period of time and where the evidence shows that
beneficial interest was lost prior to the request for LDP benefits.

FSA Response

The written comments on the draft report (see exhibit B) showed that the cited producers
would be notified of the amounts due and that the COC would make individual
determinations as to the applicability of liquidated damages. However, the response also
showed that the identification of similar cases could prove to be extremely costly and would
probably have to be delayed for at least a year to due to the limited availability of staff
resources.

OIG Position

We concur with the State office position concerning the identification of similar cases. To
reach management decision for Recommendation No. 2, we will need a response showing
the date and the amount determined, plus liquidated damages that will be
requested for repayment from the cited producers.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the actions taken or planned and the timeframes for implementation for the
one recommendation for which a management decision has not been reached. Please
note the regulation requires a management decision to be reached on all findings and
recommendations within a maximum 6 months from report issuance, and final action to be
taken within 1 year of each management decision. Correspondence concerning final
actions should be addressed to the Office of the Chief Financial Officer.
Scott B. Stofferahn                                                                9


We appreciate the cooperation and courtesies extended to us by members of your staff
during the audit.



/S/
EDWIN D. LINDERMAN
Regional Inspector General
    for Audit
EXHIBIT A – SUMMARY OF MONETARY RESULTS
Finding No.         Condition          Amount          Category
     1          Beneficial Interest   $27,088.73   Questioned Costs –
              Requirements Not Met                     Recovery
                                                    Recommended
EXHIBIT B – FSA RESPONSE TO THE DRAFT REPORT
